                                                         UNITED STATES DEPARTMENT OF COMMERCE
                                                         Office of Inspector General
                                                         Washington, D.C. 20230




August 10,2010




MEMORANDUM

TO:                            Lawrence E. Strickling
                               Assistant Secretary for Communications and Information
                               National Telecommunications and
                                 Information Administration (NTIA)

                                                  \\~                .
FROM:                          Ann C. Eilers <::>iVY\;v"
                               Principal Assistari(Inspector General for Audit and Evaluation

SUBJECT:                       Audit of the Public Safety Interoperable Communications (PSIC)
                                  grant to the state of New York
                               Award No. 2007-GS-H7-0039
                               Final Audit Report No. DEN-19674

The Digital Television Transition and Public Safety Act of 2005 authorized NTIA, in
consultation with the Department of Homeland Security, to implement the PSIC program-a
$1 billion, one-time, formula-based matching grant program intended to enable public safety
agencies to establish interoperable emergency communications systems using reallocated radio
spectrum. The Implementing Recommendations of the 9/11 Commission Act of2007 required
the Department of Commerce's Office ofInspector General to conduct fInancial audits of a
representative sample of grant recipients, for a total of 25 grantees over the 4-year grant period.
This report is for the audit of the PSIC grant to the state of New York.

Background

On September 30, 2007, the National Telecommunications and Information Administration
(NTIA) awarded a $60,734,783 PSIC grant to the state of New York to enhance interoperable
emergency communications. A total of $56,190,483 of the grant required nonfederal matching
contributions. Federal funds provided for acquisition and deployment of communications
equipment, and management and administration (M&A) costs must be matched by nonfederal
contributions of at least 20 percent of the total costs of those activities. Statewide planning,
planning and coordination, and training costs do not require matching share. The $56,190,483
provided for acquisition and deployment and M&A represents 80 percent of the total costs of
those activities, leaving a minimum nonfederal matching share requirement of $14,047,621.

The original award period was from October 1,2007, to September 30, 2010.
     On November 6,2009, the President signed Public Law 111-96, which extended the PSIC
     program beyond its original expiration date of September 30, 2010. The new law extended the
     performance period of all PSIC grants through September 30,2011, and allowed for additional
     extensions, through September 2012, on a case-by-case basis, if approved by the Assistant
     Secretary for Communications and Information. The governor of New York designated the New
     York State Office of Homeland Security (NYSOHS) as New York's state administrative agency
     (SAA) to apply for and administer PSIC funds. I The investment justification had a total of 10
     investments (see table 1) and received final NTIA approval on June 25,2008.

                           Table 1: Investment Justification and Funding

                                                                                                     Nonfederal
                                                                             PSIC Funds                  Match
PSIC Investment Justification                                                  Awarded               (budg,eted)                      Total

1. New York State Strategic Technology Reserve                                $4,703,820              $1,150,955           $5,854,775
                                                                                               I
2. Reqion 1: Monroe, Wayne, and Seneca Counties                                 4,236,519               1,059,380            5,295,899
3. Region 2: City of Watertown and Tompkins and
Rockland Counties                                                               2,711,040                 677,760            3,388,800
4. Region 3: Orange and Ontario Counties                                        1,821,060                 380,640            2,201,700
5. Region 4: Erie County                                                        1,612,439                 403,110            2,015,549
6. Reqion 5: OtseQo and Alleqanv Counties                                       2,035,916                 506,979            2,542,895
7. The Metropolitan Transit Authority/New York City
Transit Authority Interoperable Radio Network                                 26,312,602                5,734,400          32,047,002
8. Port Authority Trans-Hudson Interoperability
System                                                                          1,000,000                 200,000            1,200,000
9. The New York City Urban Area Regional Internet
Protocol Gateway and Radio Cache                                                7,500,000               1,875,000            9,375,000
10. Technical Interoperabilitv Project                                         8,289,387              2,072,347            10,361,734
Statewide PlanninQ                                                               412,000                      0               412,000
M&A                                                                              100,000                 25,000               125,000
Total                                                                        $60,734,783            $14,085,571           $74,820,354
     Source: New York's approved budget modification


    States were required to include a prescribed strategic technology reserve in their justifications.
    The strategic reserve is designed to preposition, or secure in advance, interoperable
    communications equipment for immediate deployment in an emergency situation or major
    disaster. New York's prescribed strategic reserve amount was $4,703,820, and appears as
    investment 1.

    I The PSIC program requires the governor of each state or territory to designate an SAA to apply for and administer PSIC funds.
    Administrative agencies are required to pass through no less than 80 percent of the total award amount to local or tribal
    governments or authorized nongovernmental public safety agencies, unless the local entity opts, via written agreement, to have
    the state agency retain and spend the funds on its behalf.

                                                                   2
Findings

NYSOHS asserts that all 10 of its investments are on schedule to be completed by September 30,
2011. We found nothing that would lead us to believe the individual investments would not be
completed on schedule. In addition, the budgeted matching share of $14,085,571 is sufficient to
cover the minimum required matching share of $14,047,621.

NYSOHS claimed total costs of$124,771, including nonfederal matching share expenses of
$51,969, as of June 30,2009. We determined that the costs claimed were reasonable, allowable,
and allocable according to PSIC grant regulations. (See attachments B and C.)

NYSOHS generally complied with PSIC requirements related to financial status reporting, cash
drawdowns, and pass-through of federal funds to local agencies. We have no adverse findings or
recommendations for cOlTective action.

cc: Thomas Gallagher, Program Manager, New York Office of Homeland Security
    Eric Abramson, Program Representative, New York Office of Homeland Security
    Thomas DiNapoli, State Comptroller, Office of the State Comptroller
    Patrice Russell, Principal Accountant, New York Office of Homeland Security,
      Federal Fiscal Unit
    Laura M. Pettus, NTIA PSIC Program Manager
    Daniel E. Meyerson, J.D., NTIA PSIC Communications Program Specialist
    Carolyn P. Dunn, DHS/FEMA Grant Programs Directorate




                                              3
       ATTACHMENT A: OBJECTIVES, SCOPE, AND METHODOLOGY

The objective of our audit was to detennine whether the NYSOHS was using its grant funds in
accordance with federal requirements. In particular, we assessed whether NYSOHS (1) was on
track to complete its interoperable communications investments by September 30,2011; (2) met
the 20 percent match for acquiring and deploying interoperable communications equipment, and
M&A costs; (3) claimed reasonable, allowable, and allocable costs under the award; and (4)
complied with grant tenns and conditions.

The audit scope included a review of costs claimed during the award period of October 1, 2007,
through June 30, 2009. We conducted our audit fieldwork from May 2009 through October 2009
at NYSOHS in Albany, New York, and at grant subrecipient sites in Buffalo and Rochester, New
York, and New York City.

To meet our objectives, we did the following:

   •    reviewed investment documentation and discussed each investment with officials from
        NYSOHS and officials overseeing several of the individual investments;
   •    analyzed source documents related to the minimum 20 percent match for acquiring and
        deploying interoperable communications equipment;
   •    traced costs claimed to source documentation;
   •    interviewed NYSOHS officials, individual investment officials, and New York's state
        comptroller, and reviewed the state's OMB Circular No. A-133 audit report for the year
        ending March 31, 2008; and
   •    reviewed pertinent laws, regulations, and guidance (listed below) against NYSOHS's
        PSIC activities and internal controls.

We evaluated NYSOHS' s compliance with federal laws and regulations applicable to the PSIC
grant project and found them to be generally in compliance with the following:

   •    Section 3006 of the Digital Television Transition and Public Safety Act of 2005, Public
        Law 109-171
   •    Call Home Act of 2006, Public Law 109-459
   •    Implementing Recommendations of the 9/11 Commission Act of2007, Public Law 110-
        53
   •    Public Safety Interoperable Communications Grants, Public Law 111-96
   •    15 CFR, Part 24, Unifonn Administrative Requirements for Grants and Agreements to
        State and Local Governments
   •    PSIC Grant Program Guidance and Application Kit, August 16, 2007
   •    NTIA PSIC Grant Program Allowable Cost Matrix
   •    NTIA PSIC Grant Program Frequently Asked Questions
   •    OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments
   •    OMB Circular A-133, Compliance Supplement, CFDA 11.555
   •    Special Award Conditions

                                                4
   •    Department of Commerce Financial Assistance Standard Terms and Conditions
   ..   DHS, Office of Grant Operations, Financial Management Guide

We gained an understanding of the management controls ofNYSOHS by interviewing NYSOHS
officials, examining policies and procedures, and examining the state of New York's most recent
OMB Circular No. A-133 audit report for the year ending March 31, 2008. We did not rely on
the accounting firm's internal control reviews but instead determined that we could better meet
our audit objectives through testing ofPSIC transactions.

We verified the validity and reliability of computer-processed data supplied by NYSOHS by
directly testing data against supporting documentation. Based on our tests, we concluded the
computerized data was reliable for use in meeting our objectives.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

We performed this audit under authority of the Implementing Recommendations of the 9/11
Commission Act of 2007, the Inspector General Act of 1978, as amended, and Department
Organization Order 10-13, August 31, 2006.




                                               5
ATTACHMENT B: SUMMARY SOURCE AND APPLICATION OF FUNDS


                              NEW YORK STATE,
                        OFFICE OF HOMELAND SECURITY
               PUBLIC SAFETY INTEROPERABLE COMMUNICATIONS
                        GRANT NUMBER 2007-GS-H7-0039
                    OCTOBER 1,2007, THROUGH JUNE 30, 2009


                                            Approved                   Receipts &
                                             Budget                    Expenses
                                               (a)                        (b)
SOURCE OF FUNDS:

Federal                                    $60,734,783                      $72,802
Nonfederal                                  14,085,571                       51,969

Total                                      $74,820,354                  $124,771

APPLICATION OF FUNDS:

Investment 1                               $ 5,854,775                  $         0
Investment 2                                 5,295,899                            o
Investment 3                                 3,388,800                            o
Investment 4                                 2,201,700                       61,343
Investment 5                                 2,015,549                            o
Investment 6                                 2,542,895                       63,428
Investment 7                                32,047,002                            o
Investment 8                                 1,200,000                            o
Investment 9                                 9,375,000                            o
Investment 10                               10,361,734                            o
Planning and M&A                               537,000                            o
Total                                      $74,820,354                  $124,771


Notes:

(a) Approved budgeted costs are for the period of October 1, 2007, through
    September 30,2011, based on New York's approved budget modification.
(b) Receipts and expenses are for the period of October 1, 2007, through June 30,
    2009, obtained from SAA and subrecipients from investments 4 and 6.




                                               6
 ATTACHMENT C: SUMMARY OF FINANCIAL/COMPLIANCE AUDIT

                             NEW YORK STATE,
                       OFFICE OF HOMELAND SECURITY
              PUBLIC SAFETY INTEROPERABLE COMMUNICATIONS
                       GRANT NUMBER 2007-GS-H7-0039
                   OCTOBER 1, 2007, THROUGH JUNE 30, 2009


        Results of Audit
                              Approved          Costs         Costs       Costs
                               Budget          Claimed      Questioned   Accepted

Investment 1                 $5,854,775                $0         $0           $0
Investment 2                  5,295,899                 0          0            0
Investment 3                  3,388,800                 0          0            0
Investment 4                  2,201,700            61,343          0       61,343
Investment 5                  2,015,549                 0          0            0
Investment 6                  2,542,895            63,428          0       63,428
Investment 7                 32,047,002                 0          0            0
Investment 8                  1,200,000                 0          0            0
Investment 9                  9,375,000                 0          0            0
Investment 10                10,361,734                 0          0            0
Planning and M&A                537,000                 0         -.J2          0

Total                       $74,820,354       $124,771            $.Q    $124,771



Federal Funds Disbursed                        $72,802
Costs Incurred                $124,771
Less: Questioned Costs               o
Costs Accepted                $124,771
Less Matching Share             51,969
Federal Funds Earned                               72,802

Refund Due the Government                      $        o




                                          7
